LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 5, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-337: REGENTS OF THE UNIVERSITY OF MINNESOTA V. LSI CORPORATION,
ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
on behalf of Respondents Ericsson Inc. and Telefonaktiebolaget LM Ericsson
referenced above contains 8,548 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 5th day of December 2019.

